No. 19-1257

In the
Supreme Court of the United States
+

MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS
ARIZONA ATTORNEY GENERAL, ET AL.,

Petitioners,
v.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.,

Respondents.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I declare that the Brief of Amicus
Curiae The American Constitutional Rights Union In Support Of Petitioners in Case
No. 19-1257 contains 5,615 words, excluding parts of the document that are exempted
by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on the 1st day of June 2020.

a \ ea |
OHNJ. PARK, JR.

616-B GREEN STREET
GAINESVILLE, GA 30501
470-892-6444
